No. 19-765
In the

Supreme Court of the United States
__________________
MICHAEL FAUST, DIRECTOR,
ARIZONA DEPARTMENT OF CHILD SAFETY,
Petitioner,
v.
B. K., BY HER NEXT FRIEND
MARGARET TINSLEY, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

BRIEF OF AMICUS CURIAE CHILDHELP, INC.
IN SUPPORT OF PETITIONER
__________________
Peter A. Gentala
Dominic E. Draye
General Counsel
Counsel of Record
CHILDHELP, INC.
GREENBERG TRAURIG LLP
6730 N. Scottsdale Rd.
2101 L Street, N.W.
Suite 150
Washington, DC 20037
Scottsdale, AZ 85253
(202) 331-3168
(480) 922-8212
drayed@gtlaw.com
pgentala@childhelp.org
Counsel for Amicus Curiae
January 15, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICUS CURIAE . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. This Case Shows the Error in the Ninth Circuit’s
Now-Entrenched Parsons Rule for Class
Certification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
II. The Reform of Arizona’s Child Welfare System
Illustrates the Importance of this Issue . . . . . . 10
A. The Decision Below Threatens Child
Welfare. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. The Decision Below Threatens
Federalism . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

ii
TABLE OF AUTHORITIES
CASES
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . . . . . . . 5
City of Escondito v. Emmons,
139 S. Ct. 500 (2019). . . . . . . . . . . . . . . . . . . . . . . 5
DL v. Dist. of Columbia,
713 F.3d 120 (D.C. Cir. 2013) . . . . . . . . . . . . . . . . 7
Horne v. Flores,
557 U.S. 433 (2009). . . . . . . . . . . . . . . . . . . . . . . 14
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . . . . . . . . 5
Kress v. CCA of Tenn., LLC,
694 F.3d 890 (7th Cir. 2012). . . . . . . . . . . . . . . . . 7
M.D. v. Perry,
675 F.3d 832 (5th Cir. 2012). . . . . . . . . . . . . . . . . 7
Parsons v. Ryan,
754 F.3d 657 (9th Cir. 2014). . . . . . . . . . . . passim
Shook v. Board of County Commissioners,
543 F.3d 597 (10th Cir. 2008). . . . . . . . . . . . . . . . 7
Wal-Mart v. Dukes,
564 U.S. 338 (2011). . . . . . . . . . . . . . . . . . . . 7, 8, 9
STATUTES
S.B. 1246, 54th Leg., 1st Sess. (Ariz. 2019) . . . . . . 17

iii
RULES
Fed. R. Civ. P. 23(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . 6
Fed. R. Civ. P. 23(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . 6
Fed. R. Civ. P. 23(b)(2) . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES
Ariz. Dept. of Child Safety, “Semi-Annual Child
Welfare Report” (Sept. 2018, Rev. Oct. 29, 2018)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Amy Bennett, 2018 CIO Winners: Recognizing IT
Excellence, CIO (May 1, 2018), https://www.itwor
ld.com/article/3269275/cio-com-honors-the-2018cio-100-winners-and-hall-of-fame-inductees.html
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13
Dave Boucher and Anita Wadhwani, No More
Federal Oversight for Tennessee Children
Services, The Tennessean (July 18, 2017) . . . . . . 2
John Bursch & Maura Corrigan, Rethinking
Consent Decrees, Am. Enter. Inst. (June 2016) . 16
Casey Family Programs, Information Packet:
Supportive Communities (July 2019), available
at https://caseyfamilypro-wpengine.netdnassl.
com/media/SComm_Consent-decree-summary_
fnl.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

iv
Examining “Sue and Settle” Agreements: Part II: J.
Hearing Before the Subcomm. on
Intergovernmental Affairs and the Subcomm. on
the Interior, Energy, and Environment of the
Comm. of Oversight and Government Reform,
H.R., 115 Cong. 1 (July 25, 2017). . . . . . 15, 16, 17
Soumya Karlamangla, Arizona to Investigate Why
6,000 Child Abuse Reports Were Ignored, Los
Angeles Times (Nov. 6, 2013) . . . . . . . . . . . . . . . 11
Richard A. Posner, The Federal Courts: Challenge
and Reform (1996). . . . . . . . . . . . . . . . . . . . . 14, 15
Press Release, Office of the Governor, Arizona
Department of Child Safety Clears Inactive Case
Backlog (Mar. 16, 2019) https://azgovernor.gov/
governor/news/2017/03/arizona-departmentchild-safety-clears-inactive-case-backlog. . . . . . 12
J.B. Wogan, How Arizona Fixed Its Broken Child
Welfare System in 2 Years, GOVERNING (Apr. 27,
2017), https://www.governing.com/topics/healthhuman-services/gov-arizona-child-welfare-gregmckay.html . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13

1
INTERESTS OF AMICUS CURIAE1
Amicus curiae Childhelp, Inc. (“Childhelp”) is one of
the oldest and largest nonprofit organizations focused
on helping children who are victims of child abuse and
neglect or are otherwise at risk. Over the last six
decades Childhelp has served millions of children.
Childhelp’s programs include foster care and adoption
services, behavioral health services, residential
treatment, an abuse prevention curriculum for grades
pre-K through 12, and a nationwide hotline with text
and live-chat capability. Childhelp provides services
nationwide but has its headquarters in Arizona.
In Arizona, Childhelp works closely with the
Department of Child Safety (“DCS”) at the Childhelp
Children’s Advocacy Center. The Center is a one-stop
location that offers multiple co-located services,
including medical care, counseling, and victim advocacy
services. Through close collaboration with DCS,
Childhelp has been able to serve thousands of children
in Arizona. Childhelp also has experience in States
where federal courts have assumed control of children’s
services. In Tennessee, for example, Childhelp serves
children through foster care and adoption services and
operates a child advocacy center. Tennessee’s childwelfare system has just emerged from 18 years of
1

No party or counsel for a party has authored any portion of this
brief, and no one other than Amicus has funded the preparation or
submission of this brief. See Sup. Ct. R. 37.6. Counsel for
petitioners and respondents have provided written consent to the
filing of this brief. Greg McKay, the former director of the Arizona
Department of Child Safety, joined Childhelp in September 2019.
He took no part in the preparation of this brief.

2
federal judicial management. See generally Dave
Boucher and Anita Wadhwani, No More Federal
Oversight for Tennessee Children Services, The
Tennessean (July 18, 2017). For Childhelp and other
providers of children’s services, the federal judiciary’s
management of this traditional state function impacts
the delivery of care. It stifles innovation and calibrates
the machinery of change to the lumbering pace of
litigation.
As a provider of services to children in Tennessee,
which has endured federal court supervision for many
years, and in Arizona, which now risks the same fate,
Childhelp writes to ask the Court to consider its
perspective on federal court supervision and what it
means for children.

3
SUMMARY OF THE ARGUMENT
Child-welfare systems have become targets for
institutional-reform litigation. For plaintiffs seeking to
control the delivery of services, class litigation has
become a tool for diminishing state sovereignty,
bypassing the democratic appropriations process, and
squashing innovation around the country. Injunctions
and consent decrees place federal courts in command of
state agencies with little input from—and no
accountability to—the individuals whom their decisions
affect. The method for accomplishing this transfer of
power is class certification under Federal Rule of Civil
Procedure 23(b)(2). This case is worthy of this Court’s
review because it represents a new low in certification
standards.
The seemingly sterile topic of class certification
becomes an issue of national importance in light of its
impact on state agencies and the vulnerable children
they serve. States assume an enormous challenge when
they intervene on behalf of children who are not safe.
Successful intervention saves lives, but failure strands
children in the desolation from which States have long
worked to extricate them. Transferring this traditional
state role to a federal court handicaps innovation and
accountability. The States themselves as well as the
service providers with whom they work are better able
to craft solutions to the problems they face, as
Arizona’s own experience demonstrates.
The Court should review the decision below and
close the procedural avenue that plaintiffs have used to
displace local, democratic decision-making.

4
ARGUMENT
The courts below lumped together a menagerie of
claims under nine so-called “practices” in order to
create a way for Petitioners to have “acted or refused to
act on grounds that apply generally to the class.” Fed.
R. Civ. P. 23(b)(2). The result is easy certification for
any class seeking to install a federal court as overseer
of state services. It is also a perversion of the Federal
Rules.
Institutional-reform litigation is strong
medicine that should require a genuine
policy—typically codified in statute or rule—before a
class can be certified. The Ninth Circuit’s alternative
approach, which allows a district court to zoom out
from each plaintiff’s claims until it sees broad
categories that it can label a “policy” or “practice”
lowers the bar for judicial intervention and harms
States and the people they serve. This Court should
take the instant case to address an affront to
federalism that has now become entrenched in the
Ninth Circuit.
I. This Case Shows the Error in the Ninth
Circuit’s Now-Entrenched Parsons Rule for
Class Certification.
At a sufficient level of abstraction, divergent claims
fit under a single descriptive umbrella and could be
branded as a general “practice.” But abstractions and
generalizations are no way to serve children. They also
offend the premise of Rule 23(b)(2), which provides an
easier path to class certification when a defendant has
injured many plaintiffs with a single unlawful stroke.
Here, Respondents’ claims cover a multiplicity of
alleged shortcomings. The Ninth Circuit could only

5
certify them under Rule 23(b)(2) by creating broad
umbrella terms to impersonate the kind of actual
policies for which the Rule is designed.
In other contexts, this Court has “repeatedly told
courts—and the Ninth Circuit in particular—. . . not to
define clearly established law at a high level of
generality.” Ashcroft v. al-Kidd, 563 U.S. 731, 742
(2011) (emphasis added); see also City of Escondito v.
Emmons, 139 S. Ct. 500, 503 (2019) (summarily
reversing the Ninth Circuit for excessive generality);
Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018) (same).
The current case represents a similar exercise in
abstraction. Once again, the Ninth Circuit has looked
at disparate cases and unearthed a “policy or practice”
defined in general terms that encompasses divergent
circumstances. In the field of child welfare, however,
decisions like the ones challenged in this case are
individualized. Only by judicial aggregation do they
appear to reflect some (unwritten) policy of providing
inadequate care. This Court should curtail the Ninth
Circuit’s pattern of generalizing claims of government
misconduct in order to impose crushing liability on
state and local governments.
Amicus begins its work every day from the starting
point that each child presents unique facts and
circumstances. Before Parsons v. Ryan, 754 F.3d 657
(9th Cir. 2014), this insight was built into Rule
23(b)(2)’s insistence that the defendant in an
institutional-reform class action took steps “that apply
generally to the class.” Fed. R. Civ. P. 23(b)(2). Judge
Reinhardt’s opinion in Parsons and the panel’s holding

6
here upset decades of precedent as well as the basic
intuition that every child is unique.
In Parsons, the Ninth Circuit permitted a diverse
group of inmates to pursue a class action on the theory
that they were all subject to “policies and practices” in
areas ranging from dental care to the conditions of
solitary confinement. 754 F.3d at 662. Parsons
concluded that the policies-and-practices theory was
sufficient to satisfy the requirements of Rule 23. In
particular, the court held that plaintiffs alleging each
type of injury raised “questions of law or fact common
to the class.” Fed. R. Civ. P. 23(a)(2); Parsons, 754 F.3d
at 678 (framing the common question as “whether the
specified statewide policies and practices to which they
are all subjected by [defendant] expose them to a
substantial risk of harm”). The other requirements for
class certification followed as a matter of course. If the
policies-and-practices theory was correct, then the class
representatives were necessarily typical of other class
members because policies and practices necessarily
extend across an organization. Fed. R. Civ. P. 23(a)(3);
Parsons, 754 F.3d at 686. Likewise, Rule 23(b)(2)
presented no obstacle to the Parsons court, which
concluded that a single injunction ordering the State to
follow the law at all times was sufficient: “develop and
implement . . . a plan to eliminate the substantial risk
of serious harm that prisoner Plaintiffs . . . suffer due
to Defendants’ inadequate medical, mental health, and
dental care, and due to Defendants’ isolation policies.”
Id. at 687.
When the Ninth Circuit decided Parsons, it set itself
apart from four other circuits that had considered

7
similar claims. DL v. Dist. of Columbia, 713 F.3d 120
(D.C. Cir. 2013); Kress v. CCA of Tenn., LLC, 694 F.3d
890 (7th Cir. 2012); M.D. v. Perry, 675 F.3d 832 (5th
Cir. 2012); Shook v. Board of County Commissioners,
543 F.3d 597 (10th Cir. 2008). It also disregarded this
Court’s precedent addressing class certification based
on an alleged “policy” in Wal-Mart v. Dukes, 564 U.S.
338 (2011).
That departure has now become
entrenched and cries out for review by this Court.
Parsons was wrongly decided, and the current case
illustrates why. Both the district court and panel
decisions rely on Parsons at every turn. App. 18 (“In
Parsons, we concluded that the district court did not
abuse its discretion in similar circumstances”); App. 19
(“the same reasoning [from Parsons] applies here”);
App. 21 (“Once more, the same reasoning [from
Parsons] applies here”). But the variety of alleged
wrongdoing in the present case is even greater than in
Parsons. Where the earlier plaintiffs alleged four
categories of misconduct by the defendants, the district
court here listed nine distinct types of alleged wrongs.
App. 17. That litany—ranging from children’s dental
care to employment conditions for case
workers—appeared to the panel to fall within the broad
boundaries (if any) created by Parsons. Tellingly, the
panel noted that it had no choice but to follow the
earlier opinion. Id. As a result, Parsons has become an
umbrella under which courts can amass seemingly any
variety of claims.
This Court should now weigh in to correct the Ninth
Circuit’s costly departure from precedent. The current
case is the ideal vehicle for doing so because child

8
welfare is inherently child-specific. This Court has
already held in Wal-Mart that it is insufficient to allege
a violation of the same law (there, “that they have
suffered a Title VII injury”) or even a violation of the
same type (“or even a disparate-impact Title VII
injury”). 564 U.S. at 350. Here, the alleged injuries
are not the result of a policy at all.
In fact, Wal-Mart rejected the same kind of
manufactured “policy” embraced by the Ninth Circuit
below. There, as here, the plaintiffs alleged that the
defendant’s “culture” amounted to a “policy” that
harmed members of the class. Wal-Mart, 564 U.S. at
353–54. Indeed, the only true policy at issue in WalMart was one that allowed managers discretion in their
personnel decisions. Id. at 355. The same features
appear in the present case. Plaintiffs do not identify
any actual policy that violates the Constitution.
Instead, they rely on “statewide practices,” App. 17,
which are nothing more than linguistic headings to
aggregate individual claims. A judge following the
decision below could certainly have aggregated the
Wal-Mart plaintiffs’ claims under “practices” akin to
the categories presented here. That outcome creates a
different law for class certification in the Ninth Circuit
than in the circuits that faithfully apply Wal-Mart.
In the context of child welfare, the policies-andpractices bypass for class certification is especially
misguided. For example, Plaintiffs complain that DCS
separates too many siblings.
Plaintiff/Appellee’s
Opposition to Appeal of Class Certification, B.K. v.
McKay, No. 17-1750, 2018 WL 3218584, at *9, *24 (9th
Cir. June 29, 2018). Considering this allegation apart

9
from the facts of individual cases obscures details like
the need to accommodate a child with special needs,
whose brother or sister can thrive in a more
conventional setting. Likewise, half-siblings might be
separated from each other when moving in with
relatives that they do not share in common. Or
perhaps a child facing severe behavioral health
challenges may need individualized, specialized care
for a period of time before becoming stable enough to
join siblings in a traditional placement. Like the
promotion decisions in Wal-Mart, such nuances are lost
when considering only aggregate data and inferring a
nefarious practice. For that very reason, the Rules
require a common fact to be decided in one stroke,
which is impossible in child welfare cases, absent an
actual policy that offends the Constitution.
For the same reason, the proposed class cannot
satisfy the requirement of Rule 23(b)(2) that “final
injunctive relief or corresponding declaratory relief is
appropriate respecting the class as a whole.” Fed. R.
Civ. P. 23(b)(2). To the contrary, not only is there no
silver bullet injunction that a court could issue, but
many of the areas where respondents seek judicial
intervention invite misallocation of resources. Hiring
personnel with specialized skills, for example, is not as
easy as declaring that DCS should employ more highly
trained therapists. The process of recruiting specialists
is time consuming and often yields no qualified
candidates. In the absence of a glut of professionals
looking to work with at-risk children, the better path is
to allow DCS to innovate and learn from creative
solutions in other jurisdictions. Of course, the relief
that respondents seek is more than just one hiring

10
binge. They ask for either a generic order that DCS
obey the Constitution or a much more sweeping judicial
takeover of the Department.
Neither of those
measures will solve the class members’ problems in one
stroke, meaning that they preclude certification under
Rule 23(b)(2).
This case marks a particularly misguided abuse of
institutional-reform litigation.
State and local
governments face an array of challenges in addressing
the diverse needs of the endangered and hurting
children in our nation’s child-safety systems. The class
certification theory embraced by the Ninth Circuit
amalgamates the unique circumstances of children in
Arizona’s child-welfare system under generalized
“practices.” That generalization is foreclosed by
precedent from this Court and has been rejected by
other circuits since before the Ninth Circuit took a
different path in Parsons. The Court should grant the
current Petition to confirm that Rule 23(b)(2) requires
a challenge to a genuine policy or other common action
impacting every member of the class in the same way.
II. The Reform of Arizona’s Child Welfare System
Illustrates the Importance of this Issue.
The importance of limiting federal judicial oversight
to its appropriate and very rare circumstances is hard
to overstate. Institutional-reform litigation enlists a
federal court to administer programs ordinarily
managed by local authorities. Whether by injunction
or consent decree, this governance by the federal
judiciary is offensive to federalism, immune to
accountability, and ultimately harmful to the

11
innovation that Arizona and other States have made a
hallmark of their child-welfare reforms.
A. The Decision
Welfare.

Below

Threatens

Child

The Arizona Department of Child Safety is a
success story for child-welfare reform. After a tragic
revelation that over 6,000 cases of suspected abuse had
gone uninvestigated, Arizona’s elected officials took
action. Soumya Karlamangla, Arizona to Investigate
Why 6,000 Child Abuse Reports Were Ignored, Los
Angeles Times (Nov. 6, 2013). In early 2014, thenGovernor Jan Brewer launched a new, cabinet-level
child-welfare agency. Governor Brewer’s plan received
bipartisan support in the legislature and similarly
broad support in the community. Since the creation of
DCS, transparency, innovation, and accountability
have improved significantly.
Improvement, of course, does not mean that the
Department is completely without problems, or that
problems are easily remedied. But it means that the
State’s leaders are acknowledging and addressing
challenges in a deliberate, publicly accountable
manner. And outcomes are improving. DCS has
developed a national reputation for consistent progress
that Amicus wishes were replicated in other States.
Among the Department’s accomplishments:
• A backlog of cases that had climbed as high
as 16,000 has been slashed—decreasing to
just 1,000.
• The total number of children in state care,
which had swelled to a high of over 19,000,
has declined to 13,000.

12
• The average wait time for callers to the DCS
child-safety hotline has plummeted from over
twelve minutes to just 31 seconds.
• The hotline call abandonment rate has
improved from 32 percent to 2.4 percent.
• The average time for placement in foster care
has fallen from 40 hours to 7 hours.
• Average caseload has dropped by
approximately 85 percent.
See generally Press Release, Office of the Governor,
Arizona Department of Child Safety Clears Inactive
Case Backlog (Mar. 16, 2019) https://azgovernor.gov/go
vernor/news/2017/03/arizona-department-child-safetyclears-inactive-case-backlog.
These improvements have attracted national
attention. For example, Governing Magazine described
the “eye-popping improvements in performance” that
occurred between 2015 and 2017. J.B. Wogan, How
Arizona Fixed Its Broken Child Welfare System in 2
Years, GOVERNING (Apr. 27, 2017), https://www.governi
ng.com/topics/health-human-services/gov-arizona-childwelfare-greg-mckay.html. The magazine attributed
this progress to the selection of Greg McKay—himself
a former foster parent—to run the organization. Id.
The Seattle-based Casey Family Programs concurred,
awarding McKay its Excellence for Children Award in
2018.
Similarly, in 2018, the Department’s adoption of
mobile technology under Chief Information Officer
Linda Jewell earned it a spot on the CIO 100 List
alongside companies like Adobe, Verizon, and Siemens.
Amy Bennett, 2018 CIO Winners: Recognizing IT

13
Excellence, CIO (May 1, 2018), https://www.itworld.com
/article/3269275/cio-com-honors-the-2018-cio-100winners-and-hall-of-fame-inductees.html.
In fact,
Arizona DCS was one of just two state agencies on the
list. Id. (the other was the Pennsylvania Treasury
Department).
Notably, McKay’s tenure and the “eye-popping”
reform of child services began just one month after the
filing of this lawsuit in 2015. Indeed, this lawsuit
began just over a year after DCS came into existence as
its own agency. The night-and-day contrast between
what the Department has accomplished and the
drudgery of this litigation—still laboring to decide class
certification—illustrates the core flaw in seeking
judicial remedies for every government failure.
Further highlighting the superiority of political
solutions and the variety of claims aggregated below,
some of DCS’s reforms respond directly to the “policies
and practices” identified in the lower courts. One of
the trial court’s nine “statewide practices,” for example,
was “excessive caseworker caseloads.” App. 17. That
fact is a relic of the time when the complaint was filed.
In 2014, the average caseload was 145, more than
seven times the recommended national standard of 20.
Wogan, supra. In June 2018, the last report for which
data is available, that figure had plunged to 19.85.
Ariz. Dept. of Child Safety, “Semi-Annual Child
Welfare Report” (Sept. 2018, Rev. Oct. 29, 2018) (data
from website; calculation original). One problem with
relying on litigation is that it cannot adapt to changing
circumstances nearly as quickly as the political
branches. And modifying injunctions and consent

14
decrees is virtually impossible. A previous effort to
alter a consent decree in Arizona required 17 years of
litigation before eventual resolution by this Court.
Horne v. Flores, 557 U.S. 433, 441 (2009).
B. The Decision Below Threatens Federalism.
As a provider of services to children throughout the
nation, Amicus collaborates with state and local childwelfare agencies on a daily basis. These agencies face
serious and evolving challenges.
Child-welfare
outcomes depend, among other things, on factors like
economic prosperity, education, and the pervasiveness
of substance abuse within a community. In Childhelp’s
experience, local leaders are better able to address
these shifting challenges than are federal judges. That
insight is consistent with the federalism at the heart of
American government. By supplanting local leadership
with judicial management, the Ninth Circuit has dealt
a blow to both federalism and children in need. What
has become possible through the efforts of DCS
reformers in Arizona could now be smothered by
judicial control.
A growing consensus both within the judiciary and
outside of it recognizes the downsides of courts
administering non-judicial departments. The primary
flaw is that the interests of children are essentially
unrepresented in the process. Judge Richard Posner
has recognized that judicial decrees give “federal
district court judges managerial responsibilities remote
from the judicial function in an adversary system.”
Richard A. Posner, The Federal Courts: Challenge and
Reform 341 (1996). Judge Posner traces the many
unintended consequences that have followed

15
institutional-reform litigation.
Across different
contexts, those consequences include “sapping the
authority of wardens and guards,” “‘white flight’ to
suburbs and to parochial and other private schools,”
and the closure of state-run mental institutions with a
resulting increase in homelessness. Id.
Other observers have pointed to the decline in
accountability and innovation that follows judicial
oversight, a trend that Amicus has observed first-hand.
In testimony before Congress, Dr. David Sanders, the
Executive Vice President for Systems Improvement at
Casey Family Programs explained that “the reality” of
consent decrees is that they last longer than anyone
anticipates (an average of 16.8 years) and, despite
efforts toward tailoring, inevitably tend toward “cookie
cutter” solutions that cannot accommodate new
information. Examining “Sue and Settle” Agreements:
Part II: J. Hearing Before the Subcomm. on
Intergovernmental Affairs and the Subcomm. on the
Interior, Energy, and Environment of the Comm. of
Oversight and Government Reform, H.R., 115 Cong. 1
(July 25, 2017) (Statement of Dr. David Sanders, Exec.
Vice President for Systems Improvement at Casey
Family Programs) (“Sanders Testimony”) at 16.
Of particular concern in the area of child welfare
are developments in areas like “brain science, the
impact of trauma, and the growing number of evidencebased and promising practices that achieve positive
and lasting outcomes.” Id. There is no reason to think
that these developments will stop anytime soon, yet an
injunction or consent decree entered today will lock in
current thinking for decades to come.

16
Illustrating this point, the American Enterprise
Institute recently studied Michigan’s experience
operating under a consent decree intended to improve
that State’s child-welfare system. John Bursch &
Maura Corrigan, Rethinking Consent Decrees, Am.
Enter. Inst. (June 2016). That report notes the nearly
ubiquitous feature of judicial decrees setting caseload
limits for each caseworker, which “preclude[s]
experimenting with different arrangements that might
provide better services to children.” Id. at 8 (citing
team-based approaches as an example). It also
identifies millions of dollars diverted from children’s
services to “plaintiffs’ attorneys and court-appointed
monitors.” Id. at 10. Michigan’s experience is
consistent with what Amicus has observed in other
jurisdictions. It also matches Dr. Sanders’s conclusion
that, under a judicial decree, “the objective becomes
checking off the frequency of activities or services
rather than having a focus on the quality or
effectiveness of programs.” Sanders Testimony at 17.
Unsurprisingly, only six of the 31 States to have faced
litigation over their child-welfare programs have
emerged from judicial oversight.
Casey Family
Programs, Information Packet: Supportive
Communities (July 2019), available at https://caseyfami
lypro-wpengine.netdnassl.com/media/SComm_Consentdecree-summary_fnl.pdf.
A better path is to leave authority over child welfare
with the political branches of government and the
voters who have the opportunity to change course with
every election. Arizona’s experience is a good example.
Beginning in 2015, the governor responded to
deficiencies at DCS with the appointment of a new

17
director and additional resources. Innovations over the
past four years track best practices in the field,
including regular data collection to identify weakness
and respond before it becomes a crisis. The best childwelfare programs “use data to create robust continuous
quality improvement (CQI) programs to self-correct in
real time and into the future.” Sanders Testimony at
18. These self-policing methods, like Arizona’s monthly
and semi-annual data reports, “render aspects of the
justification for consent decrees obsolete.” Id.
And the process of structural improvement in
Arizona continues.
Just this year, the Arizona
Legislature passed a bill DCS had requested that will
give the Department authority over behavioral health,
an area that currently falls within the purview of the
Arizona Health Care Cost Containment System. S.B.
1246, 54th Leg., 1st Sess. (Ariz. 2019) (enacted with
only one vote against). Adding responsibility for
behavioral health will improve DCS’s ability to care for
children, but it will also cause a temporary spike in
workload that would look like backsliding to someone
unfamiliar with the Department’s plans. Large-scale
innovation is essential for continued progress, but
injunctions necessarily deal in benchmarks and
quantifiable criteria. The story of DCS’s improvement
could never have occurred under such a regime. Nor
can it continue in that setting.
Courts serve an essential function, but in Amicus’s
experience, federal judicial decrees quell the
nimbleness and accountability that has made DCS a
turnaround success story. Child-welfare services
succeed when they can accommodate each child’s

18
circumstances and develop new approaches in response
to new evidence. The law incorporates this insight in
the class-certification process. At this stage—not
later—courts must recognize the limits of their ability
to administer a system as complicated and dynamic as
the Department of Child Safety.
Rule 23(b)(2)’s insistence on a clean, single issue
impacting all plaintiffs is a tool in service of the
separation of powers. It recognizes that federal courts
can accomplish much but they are ill-suited to the
administration of a large and diverse social program.
That work belongs to the executive and legislative
branches. Because this case presents a new frontier in
aggregating diverse claims within a 23(b)(2) class,
Amicus urges the Court to review the Ninth Circuit’s
decision and the Parsons precedent on which it relies
with an eye toward preserving ingenuity and
accountability in child-welfare reform.
CONCLUSION
The Court should grant the Petition for Writ of
Certiorari.
Respectfully submitted,
Peter A. Gentala
Dominic E. Draye
General Counsel
Counsel of Record
CHILDHELP, INC.
GREENBERG TRAURIG LLP
6730 N. Scottsdale Rd.
2101 L Street, N.W.
Suite 150
Washington, DC 20037
Scottsdale, AZ 85253
(202) 331-3168
(480) 922-8212
drayed@gtlaw.com
pgentala@childhelp.org
Counsel for Amicus Curiae

